              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Security Over Wireless Networking
Technologies




DOE/IG-0617                                 August 2003
                                   Department of Energy
                                       Washington, DC 20585

                                       August 25,             2003



MEMORANDUM FOR THQ SECIjETARY

FROM:
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Security Over Wireless
                         Networking Technologies"

BACKGROUND

An increasing number of the Department of Energy's organizations are using wireless
communications devices and networks. Such technologies enable the transmission of data
without physical connection using radio frequency. Wireless technologies range from such
complex systems as wireless local area networks, cell phones, and personal digital assistants to
relatively simple devices that do not process or store information, such as wireless headphones,
and microphones.

The trend toward wireless technology has many benefits, primarily in terms of operating
efficiencies and effectiveness. However, the technology carries with it certain security
implications which need to be addressed, especially when dealing with sensitive information. In
fact, the National Institute of Standards and Technology (NIST) reports that risks in wireless
networks are equal to the s u m of the risk of operating a wired network plus the new risks
presented by weaknesses in wireless protocols. As such, NIST recommends specific strategies to
mitigate risks as wireless technologies are integrated into computing environments. We initiated
this audit to determine whether the Department had taken actions to reduce the risks associated
with its wireless networks.

RESULTS OF AUDIT

Four of six Department organizations we reviewed that had deployed wireless networks did so
without assessing the risks associated with their use. We noted that most sites did not routinely
implement or test the effectiveness of wireless security measures and that organizations had not
focused sufficient attention on properly securing wireless networks or preventing the
unauthorized use of such devices. In particular, they had not developed specific guidance or
configuration management policies outlining approval, security, and wireless connection
requirements. Lack of attention to wireless security placed the Department's information
systems at risk of attack from internal and external sources and could ultimately result in the
compromise of critical systems and information.




                                     dB,   Printed with toy ink on recycled paper
                                                2



The Department has initiated an effort to require specific security actions regarding wireless
devices. For example, management has drafted and circulated for comment specific policy for
the use of wireless technologies and devices throughout the Department. Also, various
organizations have procured and are piloting the use of certain wireless security tools. Despite
these positive steps, we concluded that more needs to be done if the Department is to have in
place a comprehensive wireless security strategy consistent with the President's Management
Agenda's initiative regarding the use of information technology to improve Government
operations. Consequently, we recommended a number of additional actions that should help
improve the security and effectiveness of wireless technology.

Recently, the Secretary of Energy's Office of Independent Oversight and Performance Assurance
completed a study of the use of wireless networking technologies at the Department. That study
disclosed a number of concerns associated with the use of wireless networking technologies that
parallel the findings in our report.

Due to security considerations, we have deleted from this report information that would identify
specific programs and organizations reviewed as part of the audit. Cognizant officials were
provided information on specific vulnerabilities identified during our audit fieldwork.

MANAGEMENT REACTION

Management agreed with our recommendations and noted that the Department's proposed policy
Tyber Security Requirements for Wireless Devices and Information Systems" will address
many of our recommendations.

Management's comments are included as Appendix 3.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
    Chief Information Officer
    Director, Office of Science
SECURITY OVER WIRELESS NETWORKING TECHNOLOGIES

TABLE OF
CONTENTS



              Mitinatinn the Risk of Wireless Networks

              Details of Finding .......................................................................   1

              Recommendations....................................................................          .3

              Comments..................................................................................   4


              Append ices

              1. Objective, Scope, and Methodology .....................................                   5

              2. Prior Reports .........................................................................   7

              3. Management Comments.......................................................                9
-




    MITIGATING THE RISK OF WIRELESS NETWORKS

    Wireless Security   We evaluated wireless security strategies at 10 Department of Energy
                        (Department) organizations. Six of the organizations we reviewed had
                        implemented wireless networks without adequate protective measures.
                        The remaining four sites reported that they did not permit wireless
                        networks but had not taken periodic action to determine whether
                        unauthorized connections existed. The sites reviewed also did not
                        routinely implement or test the effectiveness of existing wireless
                        protective measures.

                                                 Deployment and Access Issues

                        Department of Energy Order 205.1 (DOE 0 205.1) requires that
                        organizations have a program in place to test and evaluate security
                        controls to ensure their continued effectiveness in the face of evolving
                        risk. In addition, the National Institute of Standards and Technology
                        (NIST) urges agencies to be aware that maintaining a secure wireless
                        network is a continual process that requires more effort than that
                        required for other networks and systems.

                        At six of the organizations we reviewed, we observed that wireless
                        networks had been deployed and were an integral part of the site's
                        business or operational network. Users were permitted, through the use
                        of wireless access points, to access resources normally available only
                        through their standard or "wired" network connection. Whde officials
                        at some of these sites indicated that they had implemented protective
                        measures such as encryption and authentication, they did not routinely
                        test or scan wireless systems to determine the effectiveness of those
                        measures - a routine and essential practice for "wired networks."

                        Sites stated, and performance testing by the Office of Independent
                        Oversight and Perfonnance Assurance (OA) confirmed, that a number
                        of entities had installed and were operating unauthorized wireless
                        devices. For example, at one site managed by the Office of
                        Environmental Management, testing revealed that several wireless
                        devices were transmitting data in an unencrypted "clear text" format
                        that could be easily intercepted and read. Data such as passwords and
                        user names - information that could permit access to a portion of a site
                        network - could be readily discerned or decoded. At another site
                        managed by the National Nuclear Security Administration, OA
                        officials confirmed the existence of numerous unauthorized wireless
                        devices. Additionally, site personnel determined that some
                        unauthorized wireless devices were connected to operational networks.




    Page 1                                                                   Details of Finding
                       Officials with three of the ten organizations we reviewed indicated that
                       since they did not permit wireless devices there was no need to test for
                       unauthorized use. A fourth site that did not permit wireless devices
                       had started pilot testing for unauthorized connections. The remaining
                       six organizations told us that they performed testing only on an ad hoc
                       basis.

                                         Security Plans and Risk Assessments

                       Despite Federal and Departmental requirements regarding risk
                       mitigation strategies, four of the six sites we reviewed had implemented
                       wireless networks without adequately considering associated risk
                       factors. Specifically, only one had prepared and documented a risk
                       assessment prior to installing wireless networks and none of the six had
                       modified their cyber security program plan (CSPP). Some of the
                       organizations did not consider the risk assessment to be a high priority
                       and told us that they planned to perform it when they updated their
                       CSPP. The CSPP is supposed to be updated when significant
                       operational changes occur or at two-year intervals.


Management Focus and   Department organizations had not focused sufficient attention on
Resources              properly securing or preventing the unauthorized use of wireless
                       devices. The sites we visited had not developed specific guidance or
                       configuration management policies outlining approval, security, and
                       wireless connection requirements. Officials at three of the sites
                       believed that policy was unnecessary because they did not permit
                       wireless. The rate of unauthorized use at other sites, however,
                       demonstrates the need to specify connection and security policies. For
                       the most part, organizations had also not developed sufficient site-
                       specific guidance for areas such as device encryption or security
                       capabilities, vulnerability testing, and required management approvals.
                       It should be noted that DOE 0 205.1, as recently issued, contains
                       provisions requiring that risk management in security planning be
                       addressed to include the use of wireless technology and personal
                       electronic devices. The Office of Chief Information Officer (CIO) has
                       also drafted additional policy specific to wireless devices requiring that
                       the security of wireless technologies be implemented in a manner
                       consistent with guidance by NIST.

                       Furthermore, the Department had not acquired the tools and training
                       needed to address the wireless environment. Officials in the CIO stated
                       that, unlike with the wired environment, the CIO had not taken action to


Page 2                                                                        Details of Finding
                           acquire an enterprise license for a tool that would facilitate wireless
                           vulnerability assessment. These officials indicated that they were
                           evaluating the need for performance and vulnerability testing tools and
                           may consider procuring and distributing them. Also, a CIO official at
                           Headquarters indicated that the office lacked adequately trained
                           personnel to perform wireless identification and vulnerability testing
                           and that a configuration standard on which to base compliance had not
                           been developed.


Unclassified Information   Inadequate protective measures exposed the Department's information
Systems May Be At Risk     and information systems to risk of attack from internal and external
                           sources and could ultimately result in compromise of critical systems.
                           Industry experts expect that 30 percent of enterprises will suffer serious
                           security exposures from deploying wireless networks without
                           implementing the proper security, and at least 20 percent of enterprises
                           already have rogue wireless networks attached to their corporate
                           networks. Within the Department, the compromise of a single wireless
                           access point connected to an organization's business network could
                           allow malicious users to access sensitive information residing on
                           internal networks. Additionally, unauthorized users could exploit
                           network vulnerabilities by launching a network attack on a third party
                           (private party or other Government organization), thus exposing the
                           Department to litigation.


RECOMMENDATIONS            To enhance overall security for wireless networks to unclassified
                           information systems, we recommend that the Chief Information Officer,
                           in coordination with the Administrator, National Nuclear Security
                           Administration and the Under Secretary for Energy, Science and
                           Environment:

                                 1. Establish Department-wide requirements for wireless device
                                    and network implementation;

                                 2. Enforce the requirement for organizations to perform
                                    documented risk assessments and to develop and implement
                                    protective measures commensurate with the assessed level of
                                    risk; and,




Page 3                                                                         Recommendations
                            3. Require that wireless security be evaluated during the security
                               self-assessmentsrequired by the Federal Information Security
                               Management Act of 2003.

                      To correct the specific vulnerabilities noted in this report, we
                      recommend that the Administrator, National Nuclear Security
                      Administration, and the Under Secretary for Energy, Science and
                      Environment require the offices and organizations within their
                      responsibility to:

                            1. Develop and implement protective measures commensurate
                               with the assessed level of risks of wireless networks,
                               including evaluating and acquiring wireless security technical
                               tools that enable effective testing and monitoring of wireless
                               devices and networks against associated risk;

                            2. Amend Cyber Security Program Plans prior to introduction of
                               wireless technologies into their computing environment if it
                               significantly changes the operational risk; and,

                            3. Issue clear guidance for wireless security, tailored to the
                               particular operating environment, consistent with NIST
                               guidance.


MANAGEMENT REACTION   Management generally concurred with our recommendations and made
                      a number of technical comments that have been reflected in the report.
                      The text of management's comments is included as Appendix 3.




Page 4                                                                             Comments
-




    Appendix I

    OBJECTIVE     To determine whether the Department had taken actions to mitigate the
                  risks associated with wireless networks.


    SCOPE         The audit was performed between September 2002 and May 2003. We
                  assessed whether the Department had taken actions to mitigate the risks
                  associated with wireless networks. Our work did not include a
                  determination of whether vulnerabilities found were actually exploited
                  and used to circumvent existing controls.


    METHODOLOGY   To accomplish our objective, we:

                        0   Reviewed Federal regulations such as the Office of
                            Management and Budget (OMB) Circular A- 130,
                            Departmental Directives, and guidance pertaining to wireless
                            security. Generally, OMB Circular A-130 requires that
                            organizations assess the risk associated with emerging
                            technologies prior to their deployment. DOE 0 205.1 also
                            requires each organization to implement a Cyber Security
                            Program commensurate with risk and to document the results
                            in a CSPP. Further, the NIST recommends that agencies
                            perform a risk assessment and develop a security policy
                            before introducing wireless technologies.

                        0   Reviewed relevant reports issued by the Office of Inspector
                            General, the General Accounting Office, and Office of
                            Independent Oversight and Performance Assurance.

                        0   Held discussions with officials and staff at various
                            organizations.

                        0   Assessed organizational security policy and planning
                            documentation.

                  The audit was conducted in accordance with generally accepted
                  Government auditing standards for performance audits and included
                  tests of internal controls and compliance with laws and regulations to
                  the extent necessary to satisfy the audit objectives. Specific
                  performance standards were not established for the area of wireless
                  implementation and, therefore, we could not assess how they might




    Page 5                                         Objective, Scope, and Methodology
Appendix I (continued)

                     have been used to measure performance. Because our review was
                     limited, it would not necessarily have disclosed all internal control
                     deficiencies that may have existed at the time of our audit. We did not
                     rely on computer-processed data to accomplish our audit objective.

                     Management waived the exit conference.




Page 6                                               Objective, Scope, and Methodology
Appendix 2
                                       PRIOR AUDIT REPORTS


         Special Report on Management Challenges at the Department of Energy (DOE/IG-0580,
         December 2002). One of the most serious challenges faced by the Department is
         Information Technology (IT) Management. With its substantial annual expenditure for IT,
         it is essential that the Department develop and implement an effective IT management
         investment and control process. IT investment and development and cyber protection have
         suffered in the past from program management planning and execution weaknesses. While
         the Department had taken a number of positive steps to improve its unclassified cyber
         security program, many of its critical information systems remained at risk. The report
         noted that the Department had not consistently implemented a risk-based cyber security
         approach or adequately addressed configuration management and access control problems.

         The Federal Energy Regulatory Commission's Unclassified Cyber Security Program 2002
         (DOE/IG-0569, September 2002). While the Federal Energy Regulatory Commission
         (Commission) had implemented a number of protective measures, certain critical
         information systems remained at risk. Cyber protection efforts suffered from program
         management, planning, and execution weaknesses. Specifically, the Commission had not
         developed system specific security plans; adequately planned for contingency and disaster
         recovery; implemented a completely effective cyber security-trainingprogram; or
         adequately addressed configuration management and access control problems.

         Remote Access to Unclassij?edInformation Systems (DOEIIG-0568, September 2002). The
         majority of the offices reviewed had not adequately protected information systems from
         unauthorized remote access. Inadequate protective measures over remote access placed the
         Department's critical unclassified information systems at risk of data tampering, fraud,
         disruptions in critical operations, and inappropriate disclosure of sensitive or Privacy Act
         information. As reported, the Department needs to better enforce requirements for risk
         assessments, provide additional guidance for security implementation and evaluation, and
         establish performance measures related to remote access risk mitigation.

         The Department's Unclassijied Cyber Security Program 2002 (DOE/IG-0567, September
         2002). While the Department had taken positive steps since the last review, many of its
         critical information systems were still at risk. Cyber protection efforts were hampered by
         weaknesses in program management, planning, and execution. The Department had not
         sufficiently strengthened its cyber security policy and guidance, implemented a cyber
         security performance measurement system, or established an effective self-assessment
         program. As a result, the critical systems were at risk of unauthorized or malicious use.
         Furthermore, the potential existed for compromise of sensitive operational and personnel-
         related data. Additional work in policy development and implementation is necessary to
         ensure that critical information technology resources are adequately protected.




Page 7                                                                                      Prior Reports
Appendix 2 (continued)

         Inspection of Cyber Security Standards for Sensitive Personal Information (DOE/IG-053 1,
         November 2001). The report concluded that the Department does not always meet the
         requirements of the Privacy Act of 1974, the Freedom of Information Act (FOIA), or the
         Computer Security Act of 1987 because the Department: (1) does not have a Department-
         wide baseline criteria for protecting Privacy Act/FOIA personal information; (2) does not
         group Privacy Act/FOIA personal information with other unclassified sensitive information
         for protection; and (3) allows individual sites and program offices to develop differing
         security measures for protection of Privacy ActlFOIA personal information.

         Special Report on The Department of Energy's Implementation of the Clinger-CohenAct of
         1996 (DOE/IG-0507, June 2001). The report summarized 13 IT related Office of Inspector
         General reports. Cumulatively, these reports demonstrated systemic problems with the
         Department's approach to IT management and its method of addressing requirements of the
         Clinger-Cohen Act of 1996 (Act). Specifically, the Department had not satisfied major
         requirements of the Act to develop and implement an integrated, enterprise-wide, IT
         architecture, closely monitor policy implementation efforts, and acquire IT related assets in
         an effective and efficient manner. We attributed the problems identified, in part, to the
         Department's decentralized approach to information technology management and oversight
         and the organizational placement of the Chief Information Officer (CIO).

         Virus Protection Strategies and Cyber Security Incident Reporting (DOE/IG-0500, April
         2001). The Department's virus protection strategies and cyber security incident reporting
         methods did not adequately protect systems from damage by viruses and did not provide
         sufficient information needed to manage its network intrusion threat. These problems
         existed because the Department had not developed and implemented an effective enterprise-
         wide strategy for virus protection and cyber security incident reporting.




Page 8                                                                                       Prior Reports
Appendix 3



                                     Department of Energy
                                         Washington, DC 20585




                                           AUG 1     2003


         MEMORANDUM FOR RICKEY R HASS,DIRECTOR
                        SCIENCE, ENERGY,TECHNOLOGY, AND
                                  FINANCIALAUDITS


         FROM                   KAREN S. EVANS


         SUBJECT:               Consolidated Comments on Draft Inspector General Report on
                                Secwity Over wireless Networking Technologies

         The Office of the Chief Infomation OScer, as the designatedprimary action office, bas
         prepared the attached response to the draft Inspector General Report on Securiw Over
         WirelessNeWorAing Technologies. The attachment i n c m p o comments
                                                                          ~          fbm the
         National Nuclear Sccurity Administration, the Office of Science and the Office of the
         Assistant Secretaryfor Enviromtal Management.

         If you have any questionS, please contact Glenn Schlarmanor Carol Bales on (202)
         586- 1090.

         Attachment




                                       @    m*nwMmncye*dppr




Page 9                                                                             Management Comments
--



     Appendix 3 (continued)


               Attachment                                                                                   1


                                  Consolidated Comments on Draft Audit Report
                                  Security Over WwelessNetworking Technologies

               Comments on the MEMORANDUM FOR THE SECRETARY

               Results of Audit @. 1)
               First ~araeraDh.fourth sentence: The draft text states that “Absent Departmental
               guidance, organizations had not focused sufficient attention on properly securing wireless
               networks or preventing the unauthorized use of such devices.”
               Comment: where possible policy should not be technology specific. The Department of
               Energy (DOE) cyber security policies direct the continuous identification and
               management of risk regardless of the technology used.

               Comments on SECURITY OVER KT.RELESS NETWORKING TECHNOLOGIES

               Security Plans and Risk Assessment @. 2)

               First DaramDh. last sentence: Some of the organizations did not consider the risk
               assessment to be a high priority and told us that they planned to perform it when they
               updated their CSPP, a process that is supposed to occur before significant operational
               changes or at two year intervals.
               Comment: DOE Order 205.1 Department of Energy Cyber Security Management
               Program, paragraph 4.d states that “PCSPs and CSPPs must be reviewed in accordance
               with the Federal Information System Management Act (FISMA)and updated as needed
               when operational consideration (e.g. risks, threats, general support system configuration,
               vulnerabilities,or DOE cyber security directives) change significantly, but not less
               hquently than every 2 years.” It does not specify that the C y k r Security Program Plan
               (CSPP) update must be completed before the changes are implemented.

               Recommendations @. 3)

               To enhance the overall security for wireless networks to unclassified information
               systems, we recommend that the Chief Information Officer, in conjunction with the
               Acting Administrator, National Nuclear Security Administration:

               Recommendation 1: Establish Department-wide requirements for wireless devices and
               network implementation.

               ResDonse: Concur with Comment

               The Office of the Chief Information Officer (OCIO) has drafted and circulated for
               comment specific policy for the use of wireless technologies and devices throughout the
               Dep-ent.     This draft policy, DOE Notice 205.5, Cyber Security Requirementsfor
               WirelessDevices and Information Systems, explicitly requires the security of wireless
               technologies be implementedin a manner consistent with guidance issued by the National




     Page 10                                                                                 Management Comments
Appendix 3 (continued)


          Attachment                                                                                               2


          Institute for Standards and Technology (NIST)(NIST Special Publication 800-48,
          Wireless Network Security). The OCIO has discussed this draft policy with program
          officers and representatives of the Office of the Inspector General (IG). These
          discussions have made clear the program offices' wireless use must be consistent with
          NIST guidance as mandated by Office of Managementand Budget ( O m ) policy.
          The requirement to follow NIST wireless guidance was also specificallyemphasized by
          OCIO representatives at DOE'S annual security conference in April 2003.

          Recommendation2: Enforce the requirement for organizations to perform documented
          risk assessments and to develop and implement protective measures commensurate with
          the assessed level of risk.

          ResDonse: Concur with Comment

          Current law and policy clearly require documented risk assessments as part of security
          planning and system certification processes and DOE Order 205.1 includes these
          requirements. Implementing manuals will further specify the approaches necessary
          perform and document risk assessments. Implementingprotective measures
          commensuratewith the level of risk and magnitude of harm is a key principle integrated
          into Order 205.1.

          It is also important to note that while the OCIO concurs that enforcement is necessary, it
          is a shared responsibility. The Federal Information Security ManagementAct of 2002,
          like the Government Information Security Reform Act of 2000 before it, makes clear that
          implementation of security controls is first and foremost a program responsibility. As
          with any management activity, enforcement and accountabilitymust primarily take place                        -
          at that level. Any approach that removes local accountabilitysends the incorrect signal
          that security is not the program official's responsibility. Officials of the current and past
          Administrations have explicit1 made this point in policy statements to the agencies and
          in testimony before Congress.Y

          The OCIO does agree that it has an oversight responsibility and its current program of
          collecting performancemeasurement data and corrective action plans and milestones are
          the primary vehicles by which oversight is performed. We are improving that process to
          include quarterly reportingof performance measures and providing feedback to the
          programs as to the areas of weakness.

          '0- M-01-08, Memorandum for the Hcads of Executive DeDarhnentsand Anencia Jack Lew, Director,
                           ~      ~~




          ~          nJ l        a           n           l            l            a          r16,2001. y
          Testimony of the Honorable John T. Spotilla, Administrator, Ofiice of Infonuation and Regulatory AflTairs,
          Office of Managanent and Budget ComDuter Secuntv. . . CLbm Anach- WarwithoutBor d a July 26,
          2000. Statement of Mark k Forman, Associate Director for Information Technology and Electronic
          Govamnent, Office of Management and Budget before the Committee on Govunment Reform.
          Subcommittee OIL Government Efficiency, Financial Management, and Iotagovanmental Relations, U.S.
          House of Representatives, Nove~nber9,200 1.




Page 11                                                                                               Management Comments
Amendix 3 (continued)

          Attachment                                                                                   3

          As directed by OMB, these performance measures and corrective action plans are tools
          primarily intended for line management to continuallyassess their security performance
          and make necessary adjustments. Waiting for or relying solely on the OCIO to identify
          and alert program offices as to weaknesses is an incorrect shift in responsibilityand
          accountability and will degrade securityperformance not improve it.

          Finally, program offices and sites need not wait for OCIO feedback. Through the IG and
          DOE'S Office of Independent Oversight and Performance Assurance (OA) reviews, self-
          assessments,pepreviews, etc., program officials currently have ample feedback and the
          means to understand, implement, and enforce all necessary security controls.

          Recommendation 3: Require that wireless security be evaluated during the security self-
          assessmentsrequired by the Federal Information Security Management Act of 2003.

          ResDonse: Concur with Comment

          Order 205.1 requires that Heads of Departmental Elements prepare a Program Cyber
          Security Plan (PCSP) that includes addressing the risk of using wireless technology
          within their IT inhstructure. While the IG recommends adding wireless as a data
          collection point, the draft does not assert that wireless outweighs any of the risks and
          hdings presented in previous IG reports for which specific review has not been
          suggested, nor are wireless technologies and devices specifically called out in NIST
          Special Publication 800-26 Security Self-Assessment Guide of Information Technology
          Systems. The OCIO agrees that wireless technology, as well as other technology areas,
          should be assessed by all sites as a general Risk Assessment responsibility. If it is a
          greater risk to the Department overall, it should be stated in the report.



          To correct the specific vulnerabilitiesnoted in this report, we recommend that the Acting
          Administrator, National Nuclear Security Administration, and the Under Secretary for
          Energy, Science, and Environment require the offices and organizations within their
          responsibilityto:

          Recommendation 1: Develop and implementprotective measures commensurate with
          the assessed level of risk of wireless networks including evaluating and acquiring
          wireless security technical tools that enable effective testing and monitoring of wireless
          devices and networks against associated risk.

          ResDonse: t h K w .

          The OCIO has prepared DOE Notice 205.5, Cyber Security Requirements f o r Wireless
          Devicw and Information Systems. This notice must be implemented at all organizational
          levels with requirements and responsibilities flow down, as appropriate, to subordinate
          organizational levels. As part of this flow down process, Heads of Departmental
          Elements must develop and maintain PCSPs that address, among other things,risk




Page 12                                                                                   Management Comments
Appendix 3 (continued)
  -.,   -
            Attachment                                                                                4

            management, including the use of wireless and personal electronic devices, consistent
            with NIST Special Publication 80048. This notice also requires, per the PCSP,inclusion
            within applicable CSPPs of the specific technical, operational and management controls
            for wireless devices and information systems necessary to maintain risk at an acceptable
            level. This Notice is expected to be published 4th quarter FY03.

            Evaluation and acquisition of wireless security tools will be commensurate with the
            evaluation of risk that wireless networks and devices present at the local site.

            Recommendation 2: Amend Cyber Security Program Plans prior to introduction of new
            technologiesinto their computing environmentif it significantlychanges the operational
            risk.



            DOE Notice 205.5, Cyber Security Requirementsfor Wireless Devices and Information
            @stem requires Departmental Elements to identify, within their PCSPs, requirements
            regarding the incorporation of wireless technology. It further requires that Sub-elements
            include wireless networks and devices in their CSPPs. CSPPs must be updated as needed
            when operational considerationschange significantly, but at least every 2 years and
            system securityplans must be completed annually. Introducing wireless technologies
            into a legacy application or system may constitute a significant change to operational
            risk. If so, system-level security plans must be updated to reflect the use of wireless
            technologies. If not, officials responsible for updating the CSPPs must document their
            conclusionthat a change to operational risk has not occurred.

            Overall requirements for a DOE organization’sCSPPs are documented in its PCSP. As
            noted previously in our comments on Security Plans and Risk Assessments, we do not
            agree with the assumption in the draft report that a CSPP update is “supposed to occur
            before significant operational changes.”

            Recommendation3: Issue clear guidance for wireless security, tailored to the particular
            operating environment,consistent with NIST guidance.



            DOE Notice 205.5, Cyber Security Requirementsfor Wireless Devices and Information
            Systems, requires DOE Elements to use a documented risk-based approach, consistent
            with NIST Special Publication 80048, Wireless Network Security. This Notice is
            expected to be published during the 4th quarter FY03. Further, DepartmentalElement’s
            PCSPs must document roles, responsibilities,processes, and requirements for operating
            wireless devices and networks and for interconnectingthem to DOE L A ” systems.




Page 13                                                                                 Management Comments
                                                                                  1G Report No.: DOE/IG-0617

                                        CUSTOMER RESPONSE FORM


    The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
    wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
    you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
    enhance the effectiveness of future reports. Please include answers to the following questions if they are
    applicable to you:

    1. What additional background information about the selection, scheduling, scope, or procedures of the
       audit would have been helpful to the reader in understanding this report?

    2. What additional information related to findings and recommendations could have been included in this
        report to assist management in implementing corrective actions?

    3. What format, stylistic, or organizational changes might have made this report's overall message more
       clear to the reader?

    4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
       report which would have been helpful?

    Please include your name and telephone number so that we may contact you should we have any questions
    about your comments.

.   Name                                          Date

    Telephone                                      Organization

    When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
    0948, or you may mail it to:

                                         Office of Inspector General (IG-1)
                                               Department of Energy
                                              Washington, DC 20585

                                            ATTN: Customer Relations

    If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
    please contact Wilma Slaughter at (202) 586-1924.
-




    The Ofice of Inspector General wants to make the distribution of its reports as customer friendly and cost
      effective as possible. Therefore, this report will be available electronically through the Internet at the
                                                following address:


                      U.S. Department of Energy, Office of Inspector General, Home Page
                                           http://www.ig.doe.gov

                        Your comments would be appreciated and can be provided on the
                               Customer Response Form attached to the report.
